Audit of the Pension Plan at a Terminated Medicare Contractor, Independence
Blue Cross, A-07-01-00132
Department
of Health and Human Services
Office of Inspector General -- AUDIT
Audit of the Pension Plan at a Terminated Medicare Contractor, Independence Blue
Cross, A-07-01-00132
February 22, 2002
Complete
Text of Report is available in PDF format (2.67 MB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Independence Blue Cross (IBC) was a Medicare contractor until their contract was
terminated in 1997 and, as such, was allowed to claim Medicare reimbursement for
their Medicare employees' pension costs.  Regulations and the Medicare contracts
provide, however, that pension gains, which occur when a Medicare segment of a
pension plan closes, should be credited to the Medicare program.  We identified
about $2.9 million in excess pension assets at IBC.  Accordingly, we are recommending
that IBC remit the $2.9 million in excess pension assets to the Medicare program.